No.

IN THE SUPREME COURT OF THE UNITED
STATES

JOHN R. MUENSTER,
Petitioner,
v.
WASHINGTON STATE BAR ASSOCIATION,
Respondent.

On Petition for a Writ of Certiorari to the Supreme
Court of the State of Washington

DECLARATION OF SERVICE

JOHN R. MUENSTER
Petitioner pro se
P.O. Box 30108
Seattle, WA 98113
Telephone: (206)501-9565
Email: jmkkl613@aol.com

1

V*

11

DECLARATION OF SERVICE
On or about the date set forth below, I filed my
petition for a writ of certiorari with the Clerk of the Court
via priority mail, postage prepaid. On or about the same
date, I served counsel for the respondent via email and
priority mail, postage prepaid. I declare under penalty of
perjury that the above is true and correct.
Counsel for Respondent:
Scott Busby
Washington State Bar Association
1325 Fourth Avenue, Suite 600
Seattle, WA 98101-2539
Email: scottb@wsba.org
DATED this the 21st day of August, 2020.
S/ John R. Muenster
John R. Muenster
Petitioner pro se

li

